                                                             O FFICE OF A UDIT S ERVICES , R EGION VII
                                                                   601 E AST 12 T H S TREET, R OOM 0429
                                                                            K ANSAS C ITY , MO 64106
April 23, 2012

Report Number: A-07-11-04177

Mr. Michael Hales, MPA
Director
Division of Medicaid & Health Financing
Utah Department of Health
P.O. Box 143103
Salt Lake City, UT 84114-3103

Dear Mr. Hales:

Enclosed is the U.S. Department of Health and Human Services, Office of Inspector General
(OIG), final report entitled Utah Did Not Always Correctly Claim Medicaid Costs for Selected
High-Dollar Outpatient Claims. We will forward a copy of this report to the HHS action official
noted on the following page for review and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me at
(816) 426-3591, or contact Debra Keasling, Audit Manager, at (816) 426-3213 or through email
at Debra.Keasling@oig.hhs.gov. Please refer to report number A-07-11-04177 in all
correspondence.

                                             Sincerely,



                                             /Patrick J. Cogley/
                                             Regional Inspector General
                                               for Audit Services

Enclosure
Page 2 – Mr. Michael Hales, MPA


Direct Reply to HHS Action Official:

Ms. Jackie Garner
Consortium Administrator
Consortium for Medicaid and Children’s Health Operations
Centers for Medicare & Medicaid Services
233 North Michigan Avenue, Suite 600
Chicago, IL 60601
Department of Health and Human Services
            OFFICE OF

       INSPECTOR GENERAL





     UTAH DID NOT ALWAYS

        CORRECTLY CLAIM

      MEDICAID COSTS FOR

     SELECTED HIGH-DOLLAR

       OUTPATIENT CLAIMS





                       Daniel R. Levinson

                        Inspector General


                           April 2012

                         A-07-11-04177

                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices



    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as

 questionable, a recommendation for the disallowance of costs

 incurred or claimed, and any other conclusions and

 recommendations in this report represent the findings and 

 opinions of OAS. Authorized officials of the HHS operating

 divisions will make final determination on these matters.

                                  EXECUTIVE SUMMARY


BACKGROUND

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although the
State has considerable flexibility in designing and operating its Medicaid program, it must
comply with Federal requirements. In Utah, the Department of Health (the State agency) is
responsible for administering the Medicaid program.

The amount that the Federal Government reimburses to State Medicaid agencies, known as
Federal financial participation (FFP) or Federal share, is determined by the Federal medical
assistance percentage (FMAP), which varies based on a State’s relative per capita income. The
State agency’s FMAP rates ranged from 70.14 percent to 80.78 percent for claims paid during
calendar years (CY) 2007 through 2009 (January 1, 2007, through December 31, 2009).

Improper payments to providers are not allowable for Federal reimbursement under the State
plan within the meaning of sections 1903(a)(1) and 1905(a) of the Act. Therefore, FFP in such
payments constitutes an overpayment which must be adjusted under section 1903(d)(2)(A) of the
Act. Pursuant to 42 CFR § 433.312(a)(2), a State must refund the Federal share of unallowable
overpayments made to Medicaid providers.

During CYs 2007 through 2009, the State agency processed and paid 68,068 outpatient service
claims with payments greater than $1,000. We selected and reviewed 313 of these claims
totaling $8,460,635 ($6,268,512 Federal share) for outpatient services with line item paid
amounts greater than $10,000 that the State agency processed and paid during this time period.
We will refer to outpatient services whose claims included at least one line item paid amount
greater than $10,000 as “high-dollar outpatient service claims.”

OBJECTIVE

Our objective was to determine whether the State agency claimed costs for selected high-dollar
outpatient service claims during CYs 2007 through 2009 pursuant to Federal and State
requirements.

SUMMARY OF FINDINGS

During CYs 2007 through 2009, the State agency did not always claim costs for selected high-
dollar outpatient service claims pursuant to Federal and State requirements. Of the 313 high-
dollar outpatient service claims that the State agency claimed for payments it made to providers
during this period, 201 were allowable. For the remaining 112 high-dollar outpatient service
claims, providers reported incorrect charges and could not provide documentation to support that



                                               i
some of the outpatient services were provided. This resulted in overpayments totaling $373,932
($276,800 Federal share).

Providers attributed the claim errors involving incorrect charges primarily to unit quantity errors
and other billing errors. Although the State agency had procedures in place to detect incorrect
charges for Medicaid high-dollar outpatient services, these procedures did not always prevent
claim errors.

RECOMMENDATIONS

We recommend that the State agency:

   •	 refund $276,800 to the Federal Government and

   •	 use the results of this audit in its ongoing provider education activities related to incorrect
      charges and proper documentation.

STATE AGENCY COMMENTS AND OFFICE OF
INSPECTOR GENERAL RESPONSE

In written comments on our draft report, the State agency generally concurred with our first
recommendation but added that overpayments to one provider identified in our review were
actually correct. The State agency provided clarifying information regarding the payment
methodology for this provider.

After reviewing the State agency’s comments, we removed overpayments totaling $8,845
(Federal share) for this provider from our findings, then revised the associated recommendation
accordingly.

The State agency concurred with our second recommendation and described corrective actions
that it had taken or planned to take.

The State agency’s comments are included in their entirety as the Appendix.




                                                 ii
                                                  TABLE OF CONTENTS 




INTRODUCTION..................................................................................................................... 1 


          BACKGROUND ............................................................................................................       1

              Medicaid Program ...............................................................................................          1

              Utah Medicaid Program ......................................................................................              1

              Utah Medical Assistance for Outpatient Services ..............................................                            1


          OBJECTIVE, SCOPE, AND METHODOLOGY .......................................................... 2 

               Objective ............................................................................................................. 2 

               Scope ................................................................................................................... 2 

               Methodology ........................................................................................................2 


FINDINGS AND RECOMl\1ENDATIONS ........................................................................... 3 


          FEDERAL REQUIREMENTS ....................................................................................... 3 


          STATE REQUIREMENTS ............................................................................................ 4 


         UNALLOWABLE HIGH-DOLLAR OUTPATIENT SERVICE CLAIMS .................. 4 

             Unit Quantity Errors ........................................................................................... 4 

             Other Billing Errors ............................................................................................ 4 

             Unsupported Claims............................................................................................ 4 


         RECOMMENDATIONS ................................................................................................ 5 


         STATE AGENCY COMMENTS AND OFFICE OF 

           INSPECTOR GENERAL RESPONSE .................................................................... 5 


APPENDIX

         STATE AGENCY COMMENTS




                                                                    iii
                                              INTRODUCTION


BACKGROUND

Medicaid Program

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although the
State has considerable flexibility in designing and operating its Medicaid program, it must
comply with applicable Federal requirements.

Pursuant to section 1903(a)(1) of the Act, Federal reimbursement is available only for
expenditures that constitute payment for part or all of the cost of services furnished as medical
assistance under the State plan. Pursuant to 42 CFR § 433.312(a), the State must refund the
Federal share of unallowable overpayments made to Medicaid providers.

Utah Medicaid Program

In Utah, the Department of Health (the State agency) is responsible for administering the
Medicaid program. The amount that the Federal Government reimburses to State Medicaid
agencies, known as Federal financial participation (FFP) or Federal share, is determined by the
Federal medical assistance percentage (FMAP), which varies based on a State’s relative per
capita income. The State agency’s FMAP rates ranged from 70.14 percent to 80.78 percent for
claims paid during calendar years (CY) 2007 through 2009 (January 1, 2007, through
December 31, 2009).

Utah Medical Assistance for Outpatient Services

The State agency’s Medicaid program provides certain medical services, including outpatient
services. The State agency uses its Medicaid Management Information System (MMIS) to
process outpatient hospital claims. 1 During CYs 2007 through 2009, the State agency processed
and paid 68,068 outpatient service claims with payments greater than $1,000. We selected and
reviewed 313 of these claims for outpatient services with line item paid amounts greater than
$10,000 that the State agency processed and paid during this time period. We will refer to
outpatient services whose claims included at least one line item paid amount greater than
$10,000 as “high-dollar outpatient service claims.”




1
  An MMIS is a mechanized claims processing and information retrieval system that States are required to use to
record Title XIX program and administrative costs, report services to recipients, and report selected data to CMS.


                                                          1

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the State agency claimed costs for selected high-dollar
outpatient service claims during CYs 2007 through 2009 pursuant to Federal and State
requirements.

Scope

We reviewed 313 claims, or portions of claims, for high-dollar outpatient services totaling
$8,460,635 ($6,268,512 Federal share) that the State agency claimed for Federal reimbursement
during CYs 2007 through 2009.

We did not review the State agency’s overall internal control structure because our objective did
not require us to do so. Rather, we reviewed only the internal controls that pertained directly to
our objective. Achieving our objective did not require us to reconcile the MMIS outpatient paid
claims data provided by the State agency to the costs it reported to CMS or perform a medical
necessity review of the selected services or claims.

We performed fieldwork at the State agency in Salt Lake City, Utah, and at selected provider
locations, in February and March 2011.

Methodology

To accomplish our objective, we did the following:

    •	 We reviewed applicable Federal and State laws, regulations, and guidance, as well as the
       CMS-approved State plan.

    •	 We interviewed State agency officials to gain an understanding of how the State agency
       processed and adjusted claims for outpatient services.

    •	 We used the State agency’s MMIS outpatient paid claims data to identify 313 high-dollar
       outpatient claims totaling $6,268,512 (Federal share) that had been paid to 24 providers.
       To identify high-dollar outpatient claims, we:

             o	 initially selected 156 claims (associated with 14 providers 2) with line item paid
                amounts greater than $20,000 for which we reviewed the entire claim, and

             o	 additionally selected 157 claims (associated with 19 providers) with line item paid
                amounts greater than $10,000 for which we reviewed only the line item rather
                than the entire claim.


2
 Nine of the 14 providers associated with our initial selection were also included in the additional selection of 157
claims (associated with 19 providers) mentioned just below.

                                                          2

   •	 We contacted the State agency to determine whether the 313 high-dollar outpatient
      service claims had been reviewed by its Program Integrity unit.

   •	 We contacted officials from the 24 providers that received the 313 high-dollar payments
      and requested assessments as to whether the information originally reported on the claims
      was correct, and if not, why the claims were incorrect. As part of this assessment, we
      requested corrected claim information if applicable.

   •	 We reviewed supporting documentation received from the providers to verify the 

      providers’ assessments of the selected claims.


   •	 We summarized and submitted to the State agency information regarding claim 

      corrections, overpayments, and related correspondence that we received from the

      providers. 


   •	 We provided the results of our review to State agency officials on December 21, 2011.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                          FINDINGS AND RECOMMENDATIONS

During CYs 2007 through 2009, the State agency did not always claim costs for selected high-
dollar outpatient service claims pursuant to Federal and State requirements. Of the 313 high-
dollar outpatient service claims that the State agency claimed for payments it made to providers
during this period, 201 were allowable. For the remaining 112 high-dollar outpatient service
claims, providers reported incorrect charges and could not provide documentation to support that
some of the outpatient services were provided. This resulted in overpayments totaling $373,932
($276,800 Federal share).

Providers attributed the claim errors involving incorrect charges primarily to unit quantity errors
and other billing errors. Although the State agency had procedures in place to detect incorrect
charges for Medicaid high-dollar outpatient services, these procedures did not always prevent
claim errors.

FEDERAL REQUIREMENTS

Pursuant to sections 1903(a)(1) and 1905(a) of the Act, improper payments to providers are not
allowable for Federal reimbursement under the State plan. Federal reimbursement is authorized
to State Medicaid agencies for expenditures that constitute payment for part or all of the cost of
services furnished as medical assistance under the State plan. Therefore, Federal funding in
cases of improper payments constitutes overpayments which must be adjusted under section
1903(d)(2)(A) of the Act.

                                                 3

Pursuant to 42 CFR § 433.312(a)(2), a State must refund the Federal share of unallowable
overpayments made to Medicaid providers.

In addition, section 1902(a)(27) of the Act requires that services claimed for Medicaid
reimbursement be documented.

STATE REQUIREMENTS

Pursuant to Utah Administrative Code R432-100-33, providers are required to retain medical
documentation to support claims for at least 7 years.

UNALLOWABLE HIGH-DOLLAR OUTPATIENT SERVICE CLAIMS

Of the 313 high-dollar outpatient service claims that we reviewed, 112 contained errors resulting
in overpayments. Although the State agency had procedures in place to detect incorrect charges
for Medicaid high-dollar outpatient services, these procedures did not always prevent claim
errors.

Based on the results of our review, we determined that the State agency received $276,800 in
unallowable Federal reimbursement.

Unit Quantity Errors

Providers submitted 74 claims with unit quantity errors, resulting in overpayments totaling
$218,103 ($165,140 Federal share). Unit quantity errors refer to instances in which a provider
bills for an incorrect number of units for a particular service provided. For example, one
provider incorrectly billed the State agency for an implant device. The provider billed for two
devices although only one had actually been implanted. This unit error resulted in an
overpayment of $33,496 ($27,058 Federal share).

Other Billing Errors

Providers submitted nine claims with other billing errors, resulting in overpayments totaling
$24,518 ($18,712 Federal share). For example, one provider billed for an incorrect level of
service. The service actually rendered was an emergency room visit, but the provider incorrectly
billed this event as a critical care service, which is a higher and costlier level of service. This
error resulted in an overpayment of $9,366 ($6,709 Federal share).

Unsupported Claims

In addition, providers billed for 29 claims, each of which included some outpatient services for
which the providers were unable to provide supporting documentation. The providers indicated
that these errors resulted in overpayments that required claim adjustments. The overpayments
totaled $131,311 ($92,948 Federal share).




                                                 4

RECOMMENDATIONS

We recommend that the State agency:

   •	 refund $276,800 to the Federal Government and

   •	 use the results of this audit in its ongoing provider education activities related to incorrect
      charges and proper documentation.

STATE AGENCY COMMENTS AND OFFICE OF
INSPECTOR GENERAL RESPONSE

In written comments on our draft report, the State agency generally concurred with our first
recommendation but added that overpayments to one provider identified in our review were
actually correct. The State agency provided clarifying information regarding the payment
methodology for this provider.

After reviewing the State agency’s comments, we removed overpayments totaling $8,845
(Federal share) for this provider from our findings, then revised the associated recommendation
accordingly.

The State agency concurred with our second recommendation and described corrective actions
that it had taken or planned to take.

The State agency’s comments are included in their entirety as the Appendix.




                                                 5

APPENDIX

                                                                                                                                  Page 1 of 3


                               APPENDIX: STATE AGENCY COMMENTS


                                       Department of Health
                               W. David Patton, PhD
                               Executive Director

                               Division of Medicaid and Health Financing

                               Michael Hales
State of Utah                 Depr~ty Director. Utah Department ofHealth
                               Director. Division of Medicaid and Health Financing
GARY R. HERBERT
     Governor

   GREG BELL
Lieutenal'll Governor
                                                                           March 2 1,2012



          Patrick J. Cogley
          Regional Inspector General for Audit Services
          Department of Health and Human Services
          601 East I ih Street
          Room 0429
          Kansas City, Missouri 64106


           Dear Mr. Cogley:

          Thank you for the opportunity to respond to the audit entitled "Utah Did Not Always Correctly
          Claim Medicaid Costs for Selected High-Dollar Outpatient Claims" (Report No. A-07-1 1-
          04177). The Department of Health is committed to the efficient and effective use of taxpayer
          funds and values the insight this report provides on areas that need to be improved.

          We appreciate the effort and professionalism of you and your staff in this review. In Utah, the
          Office oflnspector General of Medicaid Services (Utah OIG) is charged with the task of
          conducting the Program Integrity reviews that look at the documentation Medicaid providers are
          required to keep when they submit Medicaid claims. As with all review processes, the number
          of potential reviews far exceed the number of staff available to do reviews. Therefore, the
          reviews conducted by your staff provided an opportunity to increase the number of claims
          reviewed here in the State. We believe that your assistance will help promote a better, more
          efficient Medicaid program.


           Response to Recommendations

           Recommendation I

                        We recommend that the State agency refo.nd $285,645 to the Federal Government.

           Department response:

                        In general, we concur with this recommendation. However, we believe payments to one
                        provider identified in the review were actually correct. Utah Valley Specialty Hospital is
                        a long-term acute care hospital, which is reimbursed based on negotiations. Due to
 .!J ~         UTA H DEPARTM ENT OF
                                                                      288 North 1460 West • Salt Lake City, UT
       r. HEALTH                                          Mailing Address: P.O. Box 143101 • Salt Lake City, UT 84114-3101
                                                      Telephone (801) 538-6689 • Facsimile (801) 538-6478 • wwwhealth.utah.go v
                                                                                                         Page 2 of3




Patrick J. Cogley
March 21, 2012
Page2
       MMIS system limitations; this provider is paid a negotiated rate in the outpatient hospital
       category.
       The Utah State Plan, Attacl,unent 4.19-D, Subsection 1020 sti).tes (emphasis added):

       "Each qualifying patient will have a contract.rllte which is determined by negotiations
       between the State and the skilled nursing facility, I     term aeute care or rehabilitation
       hospitals. The rate will consider specialized equip        !Uld supplies as well as
       specialized care, including special teh · • ·              The rate will be:.in effect for a
       period specified in the contract.. ln addition, the mtensive skilled p~tyment is limited to the
       amount Medicare would pay fo.r.the same services at the same facility."

        As such, .we believe the $8 784553 for Utah Valley Specialty Hospital identified in the
                  as a; correct payment and should not be repaid.     tate agrees with the OIG
               regarding the balance of the identified amount-      6;799.98.

        The State will process the federal refund of$216,799.98 on its June       2012 quarterly
        CMS~64 report. ln add'                     ent of Health will work wi        Utah OIG to
        ensure that colh;:ct\on lett          to eaeh ofthe providers that faited to maintain
        sufficient support for the cl s they submitted. These letters will be: sent to providers by
        April30, 2012.


 Recommendation 2
        We recomrnen4 tfiat the State agency use the results ofthis audit in its ongoing provider
        e.ducation activities related to incprrect charges andproper documentation.

 Department re§Portse:
        We concur. During our !Ulriual provider trairting conducted this surnm!lr and fall, we will
        ~tnind providers that:              ·
            • 	 They may only bill Medicaid for services which are ll1edically indicated. and
                documented appropriately in the patien           . All documentation must
                substantiate services that were billed to   icaid.

             • 	 They have signed a provider agreement by which they have.agreed to abide by all
                 state and federal laws related to the Medicaid program, incl · providing
                 medicalanct.billiljg records for the purposes ofconducting        and
                 Medicaid Fraud Control Unit audits.

             • 	 They need to be cogniZant of the state and federal documentation retention rules.
                                                                                                 Page 3 of3




Patrick J. Cogley 

March21, 2012 

Page3 


In l!Utnmary, the Utah Department of Health recognizes the need for Medicaid providers to keep
proper documentation for the claims they submit since any fraud, waste, or abuse in the
Medicaid.system raises costs for taxpayers in Utah and·around the country. The Department is
committed to implement the changes desctibed in this letter.




                                            Michael Hales
                                            Deputy Director, Department ofHealth
                                            Divi~ion Director, Medicaid and Health Financing
